                                               UNITED STATES
                            SECURITIES AND EXCHANGE COMMISSION
                                          WASHINGTON, O.C.      20549


    OFFICE OF.
INSPECTOR GENERAL

                                             MEMORANDUM

                                              February 22, 2010

     TO:             Diego T, Ruiz
                     Executive Director

                    Sharon Sheehan
                    Associate Executive Director
                    Office of Administrative ServiCes

                    William Fagan
                    Branch Chief, Security
                    Office of Security, Publishing and Mail Operations

     FROM:          H. David Ko~~ / '
                    Inspector Gtd}i6:V15 .

     SUBJECT:       SEC Access Card Readers in Regional Offices



              Recently the Office of Inspector General (OIG) received several allegations that two
      senior managers in a Regional Office were frequently absent from the office for several hours a
      day over an extended period of time. We initiated inquiries into these allegations. In an attempt
      to determine the veracity of these allegations, the OIG sought documentation of the employees'
      arrival and departure times. The OIG disCovered, however, that the Regional Office where the
      two senior managers worked, and most of the other SEC Regional Offices, do not have a system
      in place to identify both entry and exit times of Commission employees. The OIG found that
      only the SEC Headquarters and the New York Regional Office are equipped with systems which
    . capture building entry and exit logs.

           . The lack of access card readers such as the ones used at SEC Headquarters, or other
    similar devices that would capture such information, reveals that SEC employees may enter and
    exit the premises of most Regional Offices without such information being recorded. As a result,
    the SEC has no way of investigating allegations concerning time and attendance abuse in the
    Regional Offices. Sitch information has been instrumental to the agency in similar cases
    investigated by the 01G at HeadqUarters.

            We are reCOinmending that the access card readers or other devices to capture building
    exit and entry information, similar to ones currently utilized at the SEC's Headquarters and the
    New York Regional Office, be installed on a Commission-wide basis in every SEC Regional
 Office so that allegations of time .and attendance abuse or other law enforcement concerns may
 be adequately investigated and addressed. I

          Recommendation 1

          The SEC should, on a Commission-wide basis, ensure that all Regional Offices
          are capable ofcapturing and recording the building entry and exit information of
          Commission employees.




           In the past, access information has been critical to the OIG's investigation of several matters and to its
ability to assist other law enforcement agencies. For example, in one matter the OIG used such information to
facilitate an arrest by the FBI of an SEC contractor for his alleged criminal activity in a scheme to defiaud. In
another OIG matter, building access information established that a SEC employee was using Commission resources
to operate a private business after hours.
